U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

March 5, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Bradley Beers v. William P. Barr, Attorney General, et al., No. 19-864
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on January 9,
2020. The government’s response is now due, after one extension, on March 11, 2020. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including April 10, 2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-0864
BEERS, BRADLEY
WILLIAM P. BARR, ATTORNEY GENERAL, ET AL.

MICHAEL P. GOTTLIEB
VANGROSSI & RECCHUITI
319 SWEDE STREET
NORRISTOWN, PA 19401
610-279-4200
JEFFREY T. GREEN
SIDLEY AUSTIN LLP
1501 K STREET, N.W.
WASHINGTON, DC 20005
202-736-8291
JGREEN@SIDLEY.COM
SARAH O'ROURKE SCHRUP
NORTHWESTERN SUPREME COURT
PRACTICUM
357 EAST CHICAGO AVENUE
CHICAGO , IL 60611
773-505-9280
S-SCHRUP@LAW.NORTHWESTERN.EDU

